No. 20-795
INTHE

&upreme QCourt of tbt ltnfteb &tatts
States ofNEWYORK, CONNECTICUT,
NEW JERSEY, RHODE ISLAND, and WASHINGTON,
and Commonwealths of MASSACHUSETTS
and VIRGINIA,
V.

Petitioners,

UNITED STATES DEPARTMENT OF JUSTICE, et al.,

Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE SECOND CIRCUIT

REPLY BRIEF FOR PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.l(h), I certify that the document contains
1,205 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 1, 2021.

Colin Casey Hogan
Wilson-Epes Printi

